Report No. D-2008-091         May 13, 2008




            General Controls of the
           Capital Asset Management
           System-Military Equipment
   Additional Copies

   To obtain additional copies of this report, visit the Web site of the Department of
   Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
   Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
   (703) 604-8932.

   Suggestions for Future Audits

   To suggest ideas for or to request future audits, contact the Office of the Deputy
   Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
   604-8932. Ideas and requests can also be mailed to:

                        ODIG-AUD (ATTN: Audit Suggestions)
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704




Acronyms

CAMS-ME              Capital Asset Management System–Military Equipment
COOP                 Continuity of Operations Plan
DFAS                 Defense Finance and Accounting Service
DISA                 Defense Information Systems Agency
DITSCAP              DoD Information Technology Security Certification and
                        Accreditation Process
OATS                 Ogden Asset Tracking System
IG                   Inspector General
P&E                  Property and Equipment
SAP                  Systems, Applications, and Products in Data Processing
SSAA                 System Software Authorization Agreement
SSC San Diego        Space and Naval Warfare Systems Center San Diego, California
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                              May 13,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS/ACQUISITION
                 RESOURCES AND ANALYSIS
               DIRECfOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY

SUBJECT: General Controls of the Capital Asset Management System-Military
         Equipment (Report No. D-2008-091)


       We arc providing this report for review and comment. We considered comments
from the Director, Acquisition Resources and Analysis and Director, Defense lnfannalien
Systems Agency when preparing the final report.

        000 Directive 7650.3 requires that all recommendations be resolved promptly.
The Director, Acquisition Resources and Analysis comments were partially responsive.
We request additional comments on Recommendations B.I. and F.l.c. As a result of new
DoD certification and accreditation guidance and management comments, we deleted
Recommendation A.2. Therefore, we request that the Under Secretary of Defense for
Acquisition, Technology, and Logistics/Acquisition Resources and Analysis provide a
corrective action and completion date for Recommendation B.I. and a completion date
for Recommendation F.I.c. by June 13.2008. See findings B and F for the specific
management comments required.

        If possible, please send management comments in electronic fonnat (Adobe
Acrobat file only) to audclev@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place oflhe actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the audit staff. Questions should be
directed to Mr. Edward A. Blair (216) 706-0074 eXlension 226 or Mr. Gregory M.
Mennelti (216) 706-0074 extension 267. See Appendix B for Ihe report distribution. The
team members arc listed inside the back cover.



                                 A~                 {{ m~Jv
                                Patricia A. Marsh, CPA
                              Assistant Inspector General
                           Defense Financial Auditing Service
                    Department of Defense Office of Inspector General
Report No. D 2008-091                                                                      May 13, 2008
      (Project No. D2007-D000FN-0124.000)

                        The General Controls of the Capital Asset
                        Management System-Military Equipment

                                        Executive Summary

Who Should Read This Report and Why? DoD personnel who manage and use the
Capital Asset Management System-Military Equipment will be interested in this report.
DoD information system program managers and personnel involved in information
assurance may also find the report useful. It discusses whether the Capital Asset
Management System-Military Equipment’s general controls were adequately designed
and operating effectively.

Background. The Capital Asset Management System-Military Equipment is the
mid-term information technology solution ∗ implemented by the DoD to process and
report military equipment financial data. Military equipment accounts for three-fourths
of DoD General Property, Plant, and Equipment, the line item with the greatest dollar
amounts on the balance sheet.

This audit focused on the general controls, which includes:

                    •   security program planning and management,

                    •   access controls,

                    •   application development and change controls,

                    •   system software,

                    •   segregation of duties, and

                    •   service continuity controls.

The Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics/Acquisition Resources and Analysis is the program sponsor for the Capital
Asset Management System-Military Equipment; Space and Naval Warfare Systems
Center, San Diego, California, is the program management office and is responsible for
development including the technical configuration of the application. The Defense
Information Systems Agency, Ogden, Utah, maintains the hardware and operating
system; the Defense Finance and Accounting Service, Columbus, Ohio, performs the
help desk, security, and database administration for the application.


∗
    The information technology solution is an automated approach to capitalize military equipment using
    asset transactional data from the receipt, acceptance, and payment systems.
Results. Our audit determined that management had implemented some controls over
entity-wide security program planning and management (finding A), access controls
(finding B), application software development and change controls (finding C), system
software (finding D), and segregation of duties (finding E). However, we identified
internal control weaknesses that affect processing and reporting military equipment
financial data. The weaknesses found were related to entity-wide security program
planning and management (finding A), access controls (finding B), application software
development and change controls (finding C), system software (finding D), segregation
of duties (finding E), and service continuity (finding F). The deficient controls created
system vulnerabilities that potentially jeopardize the integrity, confidentiality, and
availability of data reported by the Capital Asset Management System-Military
Equipment. The Under Secretary of Defense for Acquisition, Technology, and
Logistics/Acquisition Resources and Analysis and the Director, Defense Information
Systems Agency must address these vulnerabilities as required by Federal and DoD
criteria outlined in the report. See the finding sections of the report for detailed
recommendations.

Management Comments and Audit Response. The Director, Acquisition Resources
and Analysis provided comments for the Under Secretary of Defense for Acquisition,
Technology, and Logistics/Acquisition Resources and Analysis. The Director,
Acquisition Resources and Analysis comments were partially responsive, including one
nonconcur and one partially concur. The Director, Defense Information Systems Agency
provided comments that were fully responsive. Based on new DoD guidance and
comments received from the Director, Acquisition Resources and Analysis, we deleted
the recommendation on documenting system firmware. We take exception with the
Director, Acquisition Resources and Analysis comments that the controls in place over
terminating separated users’ accounts comply with guidance or have effectively
controlled separated users’ accounts. We recommend holding the DoD Components
responsible for their users’ accounts or providing an alternative control for separated
users’ accounts. The Director, Acquisition Resources and Analysis plans to rely on
Defense Information Systems Agency procedures to restore CAMS-ME to normal
operations following a contingency. We recommend documenting or referencing those
procedures in the CAMS-ME contingency plan. We request that the Under Secretary of
Defense for Acquisition, Technology, and Logistics/Acquisition Resources and Analysis
provide comments on this report by June 13, 2008. See the Finding section of the report
for a discussion of management comments and the Management Comments section of the
report for the complete text of the comments.

Management Actions. We have worked closely with the Under Secretary of Defense
for Acquisition, Technology, and Logistics/Acquisition Resources and Analysis and the
Director, Defense Information Systems Agency, and they have taken prompt action by
implementing some recommendations prior to the issuance of this report.




                                            ii
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objectives                                                          2

Review of Internal Controls                                         3

Findings
     A.   Entity-Wide Security Program Planning and Management      4
     B.   Access Controls                                           8
     C.   Application Software Development and Change Control      12
     D.   System Software                                          15
     E.   Segregation of Duties                                    19
     F.   Service Continuity                                       22

Appendixes
     A. Scope and Methodology                                      27
         Prior Coverage                                            29
     B. Report Distribution                                        30


Management Comments
     Under Secretary of Defense for Acquisition, Technology, and
        Logistics/Acquisition Resources and Analysis               33
     Defense Information Systems Agency                            38
Background
    The Chief Financial Officers Act of 1990 (Public Law 101-576), as amended,
    mandates the preparation and audit of financial statements for certain agencies.
    In accordance with the Chief Financial Officers Act and generally accepted
    accounting principles, DoD is required to capitalize and depreciate the full cost of
    existing and future acquisitions of military equipment, including modifications
    and improvements, and report this information in the DoD quarterly and annual
    financial statements. DoD implemented Capital Asset Management
    System-Military Equipment (CAMS-ME) to record and value military equipment.
    To support the DoD goal of achieving auditability of financial statements, we
    conducted an audit of the general controls over CAMS-ME. General controls
    over systems are necessary to ensure the integrity, availability, and confidentiality
    of data processed by those systems.

    Capital Asset Management System-Military Equipment. CAMS-ME is the
    information technology system being implemented to maintain and update
    military equipment valuation data. It is a DoD information system that is built
    upon the Systems Applications and Products in Data Processing (SAP) software.
    CAMS-ME is a mid-term information technology solution that supports the DoD
    enterprise transition plan. Military equipment accounts for approximately
    three-fourths of General Property, Plant, and Equipment, the line item with the
    greatest dollar amounts on the DoD balance sheet.

    The Under Secretary of Defense for Acquisition, Technology, and
    Logistics/Acquisition Resources and Analysis, Property and Equipment (P&E)
    Policy Office (Policy Office) deployed CAMS-ME in two increments. The first
    increment was deployed in June 2006 and the second increment was deployed on
    January 31, 2008. Increment 1 includes an interface with the Business Enterprise
    Information Services to collect expenditure data. Component representatives also
    use the CAMS-ME Web-based interface to update the status of military
    equipment assets. Therefore, Increment 1 provides the ability to calculate
    military equipment value using the average cost methodology. The average cost
    methodology values assets by calculating average costs from program budgetary
    data.

    The P&E Policy Office designed Increment 2 to value military equipment based
    on the contract cost methodology. The contract cost methodology values assets
    by acquisition costs, derived from a contract, and the cost of embedded
    Government furnished material. Both valuation methodologies reside in
    CAMS-ME. Programs with new contract actions are to be valued using the
    contract cost methodology with Increment 2 deployment.

    CAMS-ME is supported by the P&E Policy Office in Arlington, Virginia; the
    Space and Naval Warfare System Center (SSC) in San Diego, California; the
    Defense Information Systems Agency (DISA) in Ogden, Utah; and the Defense
    Finance and Accounting Service DFAS in Columbus, Ohio. The Army, Navy,
    Air Force, Marine Corps, and Other Defense Agencies use CAMS-ME to process
    and report military equipment financial data.



                                          1
    Under Secretary of Defense for Acquisition, Technology and
    Logistics/Acquisition Resources and Analysis. The Under Secretary of Defense
    for Acquisition, Technology, and Logistics and the Under Secretary of
    Defense (Comptroller) established the P&E Policy Office in December 2000 to
    ensure a consistent military equipment valuation methodology. The P&E Policy
    Office is the program sponsor for CAMS-ME and is responsible for
    administrative configuration management. These responsibilities include
    assigning a representative to Chair and be a Voting Member of the configuration
    control board, ensuring the implementation of approved changes, and
    coordinating and scheduling all releases.

    Space and Naval Warfare Systems Center-San Diego. SSC San Diego is the
    program management office responsible for the technical configuration of the
    SAP application before production. These technical configuration management
    responsibilities include creating configuration items, customizing development
    changes, communicating transport requests to P&E Policy Office and
    DFAS Columbus, and participating in the functional configuration audits.
    SSC San Diego also provides help desk support for CAMS-ME.

    Defense Information Systems Agency-Ogden. DISA Ogden is responsible for
    coordinating, scheduling, and managing all hardware, operating systems,
    networks, and non-SAP software environments with input from CAMS-ME
    project personnel. The information processing services conducted by
    DISA Ogden include operating and maintaining the processing site, computer
    hardware, communications hardware, suite of operating system and software, data
    backup and tape management, and assisting in problem resolution.

    Defense Finance and Accounting Service-Columbus. DFAS Columbus is
    responsible for the configuration management of the SAP application once it has
    been developed and tested. This includes managing the promotion of software
    configuration and custom development from initial development to quality
    assurance to production. In addition, DFAS Columbus manages configuration
    items for configuration management control and reporting, coordinates with the
    SSC San Diego Development Team to execute the SAP Transport Management
    System Instructions, and manages all application and database maintenance and
    upgrades. The CAMS-ME Help Desk is also located at DFAS Columbus and
    assists CAMS-ME users with resetting passwords, answering questions, or
    resolving any technical difficulties they may encounter. Other responsibilities
    include testing, training, security, and Web-site development.


Objectives
    The overall objective was to assess the integrity, availability, and confidentiality
    of data processed by CAMS-ME. Specifically, we determined whether the
    computer and computer-related controls over CAMS-ME were adequate. The
    general control testing included examining the entity-wide security program
    planning and management, access controls, application software development and
    change control, system software, segregation of duties, and service continuity.
    See Appendix A for a discussion of the scope and methodology.



                                         2
Review of Internal Controls
     We identified material internal control weaknesses for the P&E Policy Office and
     DISA as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
     Program Procedures,” January 4, 2006. The P&E Policy Office did not have
     CAMS-ME general controls in place to:

            •   ensure that the CAMS-ME system security authorization agreement
                was properly documented,

            •   properly handle a separated user’s account,

            •   establish adequate password parameters for CAMS-ME,

            •   monitor or investigate unauthorized access attempts,

            •   adequately document testing of emergency configuration changes,

            •   segregate incompatible duties,

            •   prioritize computerized operations, and

            •   develop and document a comprehensive contingency plan.

     DISA Ogden did not implement controls over physical software libraries, monitor
     access to and use of system software, implement system software change controls,
     and document a comprehensive contingency plan. Implementing
     Recommendations A., B.1, B.2, C., D.1, D.2, E.1, E.2, F.1, and F.2 will improve
     the general controls over CAMS-ME. We will provide a copy of the final report
     to the senior official responsible for internal controls in the P&E Policy Office
     and DISA Ogden.




                                         3
                   A. Entity-Wide Security Program
                      Planning and Management
                   The P&E Policy Office implemented many security program planning and
                   management controls. Specifically, management adequately:

                            •   performed risk assessments in accordance with DoD policy,

                            •   established an information system security management
                                structure,

                            •   implemented a security-related personnel procedure,

                            •   monitored the effectiveness of the security program, and

                            •   documented and implemented security planning and
                                management controls over CAMS-ME.

                   However, the P&E Policy Office did not include an incident response plan
                   and a description of system firmware 1 in the CAMS-ME system security
                   authorization agreement (SSAA). The P&E Policy Office did not include
                   these items because they did not follow Federal and DoD policy for
                   preparing security plans. As a result, there is an increased risk of a system
                   outage and access to, changes to, and deletion of data by unauthorized
                   users.


Security Planning and Management Controls
           A program for security planning and management is the foundation of an entity’s
           security control structure. The program should establish a framework and
           continuing cycle of activity for assessing risk and for developing, implementing,
           and monitoring effective security procedures. The P&E Policy Office, DISA
           Ogden, and DFAS Columbus were responsible for security planning and
           management controls.


Periodic Risk Assessments
           The P&E Policy Office, DISA Ogden, and DFAS Columbus adequately
           performed risk assessments for CAMS-ME and the DISA Ogden non-classified
           internet protocol router network. The P&E Policy Office and DISA Ogden
           performed and documented required certification and accreditation testing.
           Management accepted risks and developed plans of action and milestones for the
           weaknesses identified in the risk assessments. These controls help to ensure that
           all threats and vulnerabilities are identified and considered according to the level
           of risk in establishing security controls.
1
    Firmware is programming that is stored permanently in a hardware device allowing reading and executing
    of the software.

                                                     4
Security Management Structure
    The P&E Policy Office, SSC San Diego, DISA Ogden, and DFAS Columbus
    adequately established an information system security management structure.
    Management had an organizational chart for CAMS-ME that identified personnel
    and their titles. In addition, management documented job descriptions and
    appointment letters for security personnel. The P&E Policy Office,
    SSC San Diego, DISA Ogden, and DFAS Columbus implemented an ongoing
    security awareness program and employees were aware of security policies.
    These controls assist in employee awareness of the system and application rules,
    personnel’s responsibilities, and their expected behavior.


Security-Related Personnel Procedures
    The P&E Policy Office, SSC San Diego, DISA Ogden, and DFAS Columbus
    implemented effective security-related personnel procedures. They performed
    background investigations for new hires and reinvestigations within the proper
    time frame for current employees. DISA Computing Services required Single
    Scope Background Investigations for all privileged users. Management provided
    appropriate security training and monitored training records. These controls
    reduce the risk of hiring unqualified or untrustworthy individuals, providing
    terminated employees opportunities to impair entity operations or assets, failing
    to detect unauthorized employee actions, lowering employee morale, and
    allowing staff expertise to decline.


Information Systems Security Program
    The P&E Policy Office and DISA Ogden adequately monitored the effectiveness
    of the security program. Management identified vulnerabilities that occurred
    within the past 3 years. The Information Assurance Officer adequately notified
    the designated approving authority when a significant vulnerability affected the
    acceptable risk level for the system. In addition, management implemented
    corrective actions. These controls are important to identifying areas of
    noncompliance, reminding employees of their responsibilities, and demonstrating
    management’s commitment to the security plan.


System Security Program Plan
    The P&E Policy Office did not adequately document the CAMS-ME SSAA.
    Management did not include an incident response plan and a description of
    system firmware. Office of Management and Budget Circular A-130, Appendix
    III, “Security of Federal Automated Information Resources,” and DoD
    Directive 8510.1-M, “DoD Information Technology Security Certification and
    Accreditation Process (DITSCAP) Application Manual,” July 31, 2000, require
    organizations to include an incident response plan and procedures in Appendix K
    of the SSAA. In addition, DITSCAP requires that the system architecture include

                                        5
    a detailed explanation of the system firmware. The P&E Policy Office did not
    include an incident response plan and description of system firmware because
    management did not follow Office of Management and Budget Circular A-130
    and DITSCAP policy.

    Incident Response Plan. The CAMS-ME SSAA included a Vulnerability
    Assessment Program Charter, March 6, 1998, which established the CAMS-ME
    management structure, assigned areas of responsibility, and outlined the
    delegation of authority. However, the Vulnerability Assessment Program Charter
    was outdated and did not detail an incident response plan for security events. As
    a result, there is an increased risk that a security event could occur and will not be
    properly addressed and corrected. Management has taken action by developing
    their draft “Capital Asset Management for Military Equipment, Incident Response
    Reporting Plan for CAMS-ME,” September 28, 2007. To further mitigate this
    risk, the P&E Policy Office should finalize the draft incident response plan and
    include it in the SSAA to ensure that procedures are clear, allowing security
    controls to be consistently applied.

    Description of Firmware. The CAMS-ME SSAA System Architecture
    Description identified and described the system hardware, software, interfaces,
    data flows, and accreditation boundary. However, the SSAA System Architecture
    Description did not include a description of system firmware. As a result, there is
    an increased risk of compatibility issues.

    We deleted the recommendation to include system firmware in the CAMS-ME
    SSAA based on the issuance of new DoD guidance and comments from the Under
    Secretary of Defense for Acquisition, Technology, and Logistics/Acquisition
    Resources and Analysis. DoD Instruction 8510.01, “Defense Information
    Assurance Certification and Accreditation Process,” November 28, 2007, replaced
    DITSCAP. However, at the time of our audit, the CAMS-ME authority to operate
    was granted under DITSCAP. The DoD Information Assurance Certification and
    Accreditation Process does not specifically require the documentation of system
    firmware. The National Institute of Standards and Technology Special
    Publication 800-34, “Contingency Planning Guide for Information Technology
    Systems,” June 2002, suggests documenting all system resources including
    firmware. The Director, Acquisition Resources and Analysis identified a brief
    description of the storage area network in the CAMS-ME System Architecture
    and Requirements Allocation Description. However, she did not include details
    of the firmware. We do suggest the Under Secretary of Defense Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis document all
    system resources, including firmware, for security and business continuity
    purposes. See the Management Comments section of the report for the full text of
    the comments.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. As a result of new DoD
    guidance and management comments, we deleted recommendation A.2. Draft
    Recommendation A.1. has been renumbered as Recommendation A.

                                          6
A. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics/Acquisition Resources and Analysis finalize the
draft “Capital Asset Management for Military Equipment, Incident
Response Reporting Plan for CAMS-ME,” September 28, 2007, and include
it in the System Security Authorization Agreement to comply with Office of
Management and Budget Circular A-130, Appendix III, “Security of Federal
Automated Information Resources,” and DoD Directive 8510.1-M, “DoD
Information Technology Security Certification and Accreditation Process
(DITSCAP),” July 31, 2000.

Management Comments. The Director, Acquisition Resources and Analysis
concurred. The Director, Acquisition Resources and Analysis completed an
incident response plan exercise on December 19, 2007, which included a review
of the incident response plan. In addition, she included the incident response plan
in the CAMS-ME certification and accreditation package, which was provided to
the designated approving authority as required by DoD Instruction 8510.01,
“DoD Information Assurance Certification and Accreditation Process,”
November 28, 2007.

Audit Response. The Director, Acquisition Resources and Analysis comments
were responsive and conform to requirements; no additional comments are
needed.




                                     7
            B. Access Controls
            The P&E Policy Office effectively implemented several system access
            controls. Specifically, management identified the CAMS-ME resource
            and system criticality levels and established adequate physical controls to
            protect system information. In addition, management developed adequate
            access control procedures to obtain access to the system and handle
            inactive accounts. However, the P&E Policy Office did not properly
            manage account access for employees that had left Government service,
            establish adequate password parameters for CAMS-ME, and monitor or
            investigate unauthorized access attempts. The P&E Policy Office did not
            establish adequate access controls because they did not properly create
            and follow access control policies and procedures. As a result, there is an
            increased risk of unauthorized access, modification, and deletion of
            software and data in CAMS-ME.


Physical and Logical Access Controls
     Physical and logical access controls should provide reasonable assurance that
     organizations protect computer resources (data files, application programs, and
     computer-related facilities and equipment) against unauthorized modification,
     disclosure, loss, or impairment. Physical controls include activities such as
     keeping computers in locked rooms to limit physical access. Logical controls
     include preventative measures such as security software programs designed to
     prevent or detect unauthorized access to sensitive files. The P&E Policy Office,
     SSC San Diego, DISA Ogden, and DFAS Columbus were responsible for
     CAMS-ME access controls.


Classification of Information Resources
     The P&E Policy Office appropriately identified the CAMS-ME resource and
     system criticality levels as required by DITSCAP. Management identified
     CAMS-ME as a sensitive but unclassified system. The P&E Policy Office also
     established a mission assurance category III system criticality level.
     Classification of information resources is important when defining the acceptable
     risk for the system in meeting the mission responsibilities and defining the type
     and sensitivity of data processed by the system. Management established access
     controls based on the classifications identified.


Authorized Users
     The P&E Policy Office implemented procedures for requesting access and
     handling inactive user accounts. Management documented system access request
     forms, assigned roles based on the system access request forms, and reviewed
     accounts for inactivity. However, management did not properly manage system
     account access for employees who had left Government service.

                                         8
     Since the inception of CAMS-ME, management did not properly deactivate
     account access for both individuals that had left Government service.
     Specifically, as of May 17, 2007, one of the individuals with CAMS-ME access
     had retired from a Government position and returned as a contractor. This
     individual retained all rights and privileges granted from his system access
     request provided as a Government employee. The second individual retired from
     the Government on February 3, 2007; however, the individual’s account remained
     active until March 21, 2007. National Institute of Standards and Technology
     (NIST) Special Publication 800-12, “An Introduction to Computer Security,”
     chapter 10, October 1995, recommends that management terminate access to the
     system in a timely manner (during out-processing procedures) and, in case of an
     unfriendly termination, access should be removed at the same time (or just before)
     the employee is notified of dismissal. Controls over account access were not
     adequate because the P&E Policy Office did not establish procedures requiring
     the Components to notify the help desk when employees left Government service
     or no longer required access. As a result, there is an increased risk for separated
     employees to access CAMS-ME, damage system operations, and alter data within
     the system, which could lead to misstatements of military equipment information.
     To mitigate these risks, the P&E Policy Office should establish clear procedures
     in the memorandums of understanding for handling accounts of separated
     employees to include transfer, promotion, retirement, and unfriendly termination.


Physical and Logical Controls
     Management established adequate physical controls over the CAMS-ME
     hardware. However, the P&E Policy Office did not establish adequate logical
     controls. Specifically, management did not enable SAP password parameters to
     define the period for passwords created for new accounts, established by the user,
     and reset by the help desk.

     DoD Instruction 8500.2, “Information Assurance Implementation,”
     February 6, 2003, requires management to enforce automatic expiration of
     passwords by implementing system mechanisms. In addition, “CAMS-ME SAP
     Password Profile Parameters Policy,” April 25, 2006, requires 17 SAP
     parameters, including those identified above, to be set for CAMS-ME. The P&E
     Policy Office did not set the password parameters because management did not
     follow the CAMS-ME password policy. As a result, there is an increased risk that
     an individual could gain unauthorized access to CAMS-ME and delete or modify
     critical system programming and data. Management has taken action and
     mitigated this risk by ensuring that all capable functions are enabled for
     the 17 password parameters.


Monitor Access and Investigate Security Violations
     The P&E Policy Office performed a monthly review of the CAMS-ME activity
     logs. However, management did not monitor or investigate suspicious activity,
     such as unsuccessful access attempts. DoD Instruction 8500.2 requires the review
     of audit logs from all available sources for indications of inappropriate or unusual
     activities, and tools are available for the review of audit records and for report

                                          9
    generation. Audit logs are critical for providing information related to
    unauthorized and suspicious activities. Controls over monitoring and
    investigating suspicious activity were not adequate because the P&E Policy
    Office did not establish procedures for reviewing available audit logs. As a
    result, there is an increased risk that inappropriate access or activity would go
    undetected. To mitigate this risk, management should develop procedures for
    monitoring and investigating unsuccessful access attempts.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis:

           1. Incorporate into the Memorandums of Agreement the requirement
    for supervisors to notify the help desk when employees with access to the
    Capital Asset Management System-Military Equipment separate from the
    Component or no longer require access to ensure that the user accounts are
    deactivated, in accordance with National Institute of Standards and
    Technology Special Publication 800-12, “An Introduction to Computer
    Security,” October 1995.

            Management Comments. The Director, Acquisition Resources and
    Analysis partially concurred. The Director, Acquisition Resources and Analysis
    identified the system access request form and account termination policy of
    100 days as controls in place.

            Audit Response. The Director, Acquisition Resources and Analysis
    comments were partially responsive. Terminations of access of these two
    separated employees were not controlled as recommended by the National
    Institute of Standards and Technology. The system access request form only
    places responsibility on the employee for alerting management of their departure.
    In the two cases, this control did not ensure the timely termination of the
    accounts. Separated user accounts pose a considerable risk to the system. We
    recommend that the Under Secretary of Defense for Acquisition, Technology, and
    Logistics/Acquisition Resources and Analysis enter an agreement with the users’
    employers—the DoD Components—to provide another layer of accountability for
    users’ accounts or to develop another control to effectively manage separated
    users’ accounts. We request that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis provide a
    corrective action to control separated users’ accounts and a completion date in her
    comments on the final report.

           2. Develop and implement a security policy that includes monitoring
    and investigating suspicious activity, such as unsuccessful logon attempts as
    required by DoD Instruction 8500.2, “Information Assurance
    Implementation,” February 6, 2003.

           Management Comments. The Director, Acquisition Resources and
    Analysis concurred. The Director, Acquisition Resources and Analysis plans to

                                         10
update the existing security policy to include monitoring suspicious activity at the
operating system and network layers by August 2008.

       Audit Response. The Director, Acquisition Resources and Analysis
comments were responsive and conform to requirements; no additional comments
are needed. In addition, we suggest the Under Secretary of Defense for
Acquisition, Technology, and Logistics/Acquisition Resources and Analysis
include monitoring the application layer when updating this policy.




                                     11
           C. Application Software Development
               and Change Control
           The P&E Policy Office documented a structured configuration
           management plan, implemented controls over testing and approving new
           and revised software, and implemented controls over migrating changes
           from development to production. However, the P&E Policy Office did not
           adequately document testing of emergency configuration changes, and
           DISA Ogden did not implement controls over physical software libraries.
           These application change control weaknesses occurred because the P&E
           Policy Office did not follow emergency change procedures for
           documenting testing of emergency configuration changes, and DISA
           Ogden did not establish procedures for controlling physical software
           libraries. As a result, there is an increased risk that software changes may
           be implemented before evaluating test results and CAMS-ME software
           may not be available for installing on or updating a CAMS-ME server.


Application Change Control
    Application software supports a specific operation or business process.
    Establishing controls over the modification of application software helps to
    ensure that only authorized programs and modifications are implemented.
    Organizations can accomplish this by instituting policies, procedures, and
    techniques that help ensure all programs and program modifications are properly
    authorized, tested, and approved, and ensure access to and distribution of
    programs is carefully controlled. The P&E Policy Office, SSC San Diego, DISA
    Ogden, and DFAS Columbus are responsible for configuration management.


Authorization of Processing Features and Program
  Modifications
    The P&E Policy Office, SSC San Diego, and DFAS Columbus documented and
    implemented procedures for CAMS-ME configuration management
    responsibilities. The procedures established requirements to involve the user
    throughout the process, provided guidance to staff with varying levels of skill and
    experience, and documented configuration management changes. The P&E
    Policy Office consistently documented and approved system changes using
    standard forms. In addition, they enforced policies prohibiting the use of public
    domain and personal software. These controls reduce the risk of implementing of
    unauthorized programs and modifications.


Testing and Approval of all New and Revised Software
    The P&E Policy Office implemented controls over testing and approving new and
    revised software. Management provided sufficient documentation to support
    testing and approval for 12 reviewed changes. However, management did not
                                        12
       provide documentation to support testing of emergency changes. The P&E Policy
       Office “Capital Asset Management System-Military Equipment (CAMS-ME)
       Configuration Control Board Procedures” states that the systems integrator should
       work with the help desk to document emergency changes within 24 hours after
       the change. Management did not properly document testing of emergency
       changes because they did not follow configuration control board procedures. As
       a result, there is an increased risk that errors or unauthorized modifications could
       be implemented and have an impact on the reliability, confidentiality, and
       availability of CAMS-ME data. To mitigate this risk, the P&E Policy Office
       should enforce the configuration control board procedure that requires
       documenting the tests of emergency changes.


Controls over Software Libraries
The P&E Policy Office had adequate controls over migrating changes from development
to quality assurance and from quality assurance to production. Management used the
SAP Transport Management System to ensure proper migration and tracking for
application changes. However, DISA Ogden did not implement controls over the
CAMS-ME Windows® physical software library. A physical software library is a storage
repository for definitive authorized versions of all software. It provides assurance that
the official approved version of all software is available and provides a record of old
program versions. Management did not maintain a log to record the check-in and
check-out of software. National Institute of Standards and Technology Special
Publication 800-53, “Information Security,” February 2005, recommends implementing
controls over the information system and media libraries, including the authorization of
delivery to and removal from the library. Controls over the CAMS-ME Windows®
physical software library were not adequate because management did not develop
procedures to control the Windows® physical software libraries. As a result, there is an
increased risk that CAMS-ME software would not be available for installing on or
updating a CAMS-ME server. DISA Ogden has taken action by developing standard
operating procedures for Windows® physical software library controls that were effective
August 1, 2007. The procedures include maintaining a spreadsheet of all current
software on hand and checked out and requires the check-out and check-in process
through a librarian.


Recommendations, Management Comments and Audit
  Response
       Renumbered Recommendation. Draft recommendation C.1. has been
       renumbered to Recommendation C.

       C. We recommend that the Under Secretary of Defense for Acquisition,
       Technology, and Logistics/Acquisition Resources and Analysis properly
       document testing of emergency configuration changes to comply with the
       “Capital Asset Management System-Military Equipment (CAMS-ME)
       Configuration Control Board Procedures.”

       Management Comments. The Director, Acquisition Resources and Analysis
       concurred. The Director, Acquisition Resources and Analysis stated that the

                                           13
exception noted in the finding occurred at the inception of the application and
policies and procedures have been in place to control emergency changes since
March 2007.

Audit Response. The Director, Acquisition Resources and Analysis comments
were responsive and conform to requirements; no additional comments are
needed.




                                    14
           D. System Software
           The P&E Policy Office and DISA Ogden documented and effectively
           implemented many required controls over access to CAMS-ME system
           software. However, DISA Ogden did not effectively monitor access to,
           use of, and control changes to system software. Management did not
           monitor access to and use of system software and did not implement
           system software change controls because they did not follow DISA
           policies for system audit log review and vulnerability management, and
           they did not have adequate procedures for tracking asset information. As
           a result, there is an increased risk that unauthorized access to system
           software could occur without being identified, vulnerabilities could be
           exploited, and management could make decisions without complete
           software and version information for CAMS-ME servers.


System Software Controls
    System software is a set of programs designed to operate and control the
    processing activities of computer equipment. System software assists with
    controlling and coordinating the input, processing, output, and data storage. The
    CAMS-ME application is installed on Microsoft® Windows® Server 2003, and the
    database is installed on servers with the UNIX operating system. DISA Ogden is
    responsible for maintaining CAMS-ME system software and related access
    controls. The P&E Policy Office is responsible for maintaining the database.


Access to System Software
    DISA Ogden implemented controls to protect the integrity of CAMS-ME. These
    controls included employing automated mechanisms to support managing user
    accounts, disabling accounts after time requirements expired, and appropriate
    auditing of user accounts. These controls help ensure that system software is
    adequately protected and that security features are not bypassed.


Monitor Access to and Use of System Software
    DISA Ogden implemented controls, including system audit logs and an automated
    tool to track changes to critical system files. However, DISA Ogden did not
    implement controls to fully monitor access to and use of system software.
    Specifically, management did not implement controls over reviews of system
    audit logs and vulnerability management.

    Audit Log Reviews. Management did not implement an independent review of
    the system audit logs. The system administrator explained that he reviewed the
    audit logs for anomalies. However, no one else performed reviews or analyzed
    the logs. DISA Access Control STIG, “Security Technical Implementation
    Guide,” Version 1, Release 1, June 2006, requires not only a review of system
    audit logs, but also suggests, as a best practice, an independent review and

                                       15
        analysis of system audit logs. It further requires that a security manager,
        information assurance manager, or other designated person review the audit logs
        for trends and anomalies, which can serve as a preventive and detective control
        against down-time and attacks on the system. In addition, DISA Interoffice
        Memorandum, “Auditing Requirements,” May 7, 2007, provides guidance for
        configuring system audit logs to focus limited resources on the most important
        audit information while DoD pursues an enterprise solution to fully address
        system audit requirements. The system audit logs were not independently
        reviewed because management did not follow DoD guidance. Management also
        stated there was too much data in the logs to review. As a result, there is an
        increased risk that unauthorized system changes, including installation of
        unauthorized software, addition of new users, and profile changes to current
        users, could be made without being detected.

        No recommendation is being made to address CAMS-ME Windows® system audit
        logs because management was responsive to a recommendation made in DoD
        Inspector General (IG) Report D-2006-086, “Report on the General and
        Applications Controls at the Defense Information Systems Agency, Center for
        Computing Services,” May 18, 2006. Recommendation C.2. of that report
        recommended that the Chief, Field Security Operations develop and implement
        consistent procedures across the entity to create, monitor and review, protect, and
        maintain system audit trails to comply with the Security Technical
        Implementation Guides to provide a standard set of auditing tools. The Chief,
        Field Security Operations concurred and stated that an Enterprise Wide Solutions
        Steering Group initiative, called the Tier III Security Incident Manager, was
        established in 2007 to acquire an audit capability. The solution is a DoD-level
        initiative, and DISA plans to leverage the Tier III Security Incident Manager
        solution when it becomes available to DoD.

        Vulnerability Management. Management did not address CAMS-ME server
        vulnerabilities in a timely manner. DISA separates the vulnerabilities into one of
        the following four categories based on severity.

                 •    Category I. Any vulnerability that may provide an attacker immediate
                      access into a machine, allow super-user access, or bypass a firewall.

                 •    Category II. Any vulnerability that provides information that has a
                      high potential of giving access to an unauthorized person or provides
                      an unauthorized person the means to circumvent security controls.

                 •    Category III. Any vulnerability that provides information that
                      potentially could lead to unauthorized access.

                 •    Category IV. Any other vulnerabilities that would potentially
                      contribute to degraded security.

        The Windows® servers contained 3 Category I and 68 Category II vulnerabilities 2
        that remained open past the allowed time frame. The UNIX servers
        contained 18 Category II vulnerabilities that remained open past the allowed time
2
  Category III and IV vulnerabilities were not analyzed because the time period in which action must be
taken, 180 and 1000 days respectively, was outside of the scope of our audit.


                                                   16
    frame. The DISA Information Assurance Vulnerability Alert Handbook,
    February 2007, states information assurance vulnerability alerts must be mitigated
    within a specified time frame or, in the case where it cannot be resolved, a plan of
    action must be documented and approved. It further states that vulnerabilities
    must be corrected, have a mitigation plan in place, or an updated plan of action
    and milestones within 25 days for Category I or 60 days for Category II. The
    vulnerabilities existed because management did not follow vulnerability
    management policy. As a result, there is an increased risk of successful attacks
    on the system which could impact the reliability, availability, and confidentiality
    of CAMS-ME data. To mitigate this risk, management should immediately
    address the identified Category I and II vulnerabilities and appropriately address
    other identified vulnerabilities within the specified policy time frames.


Control System Software Changes
    DISA Ogden documented and implemented controls for system software changes,
    including tracking problems with system software and alerting customers of
    down-time required to perform system maintenance. However, DISA Ogden did
    not record software and software version information in the Ogden Asset
    Tracking System (OATS) in a timely manner. Specifically, Windows® system
    administrators did not maintain current system software information in OATS for
    all 19 of the CAMS-ME Windows® servers. Before we requested the CAMS-ME
    system information in March 2007, system administrators had not updated system
    software information since September 2006. The “DISA Computing Services
    Operations Operational Change and Configuration Management Plan,”
    March 21, 2006, requires quarterly census audits to compare and reconcile
    property management and asset accounting records. According to the DISA
    Systems Management Center Ogden Configuration Management Plan,
    March 2006, system administrators are responsible for updating the information
    in OATS. The system administrators did not update the CAMS-ME Windows®
    software information in a timely manner because the DISA Systems Management
    Center Ogden Configuration Management Plan did not establish a time frame for
    updating system information in OATS. As a result, there is an increased risk that
    management would not have complete and updated software and software version
    information to make decisions regarding vulnerabilities, licensing,
    interconnectivity, and recovery. To mitigate this risk, DISA Ogden should update
    the Configuration Management Plan to include a requirement for updating the
    OATS data quarterly, at minimum, for new versions of installed system software
    and for conducting audits of the information for validity.


Recommendations, Management Comments, and Audit
  Response
    D.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis address
    Capital Asset Management System-Military Equipment database
    vulnerabilities within the specified time frames to comply with DISA
    Information Assurance Vulnerability Alert Handbook, February 2007.


                                        17
Management Comments. The Director, Acquisition Resources and Analysis concurred.
The Director, Acquisition Resources and Analysis has documented an ongoing issue with
delayed critical patch updates with the Systems, Applications, and Products in Data
Processing implementation and will document a plan of action and milestones in the
vulnerability management system.

Audit Response. The Director, Acquisition Resources and Analysis comments were
responsive and conform to requirements; no additional comments are needed.

D.2. We recommend that the Director, Defense Information Systems Agency:

      a. Address Capital Asset Management System-Military Equipment
Windows® server vulnerabilities within the specified time frames to comply with
DISA Information Assurance Vulnerability Alert Handbook, February 2007.

       b. Update the DISA Systems Management Center Ogden Configuration
Management Plan, March 2006, to include a requirement for updating the Ogden
Asset Tracking System data at a minimum on a quarterly basis for new versions of
system software installed. The Configuration Management Plan should also require
periodic audits of the information to comply with the “DISA Computing Services
Operations Operational Change and Configuration Management Plan,”
March 21, 2006.

Management Comments. The Defense Information Systems Agency concurred. The
Director, Defense Information Systems Agency Computing Services plans to develop a
plan of action and milestones for all Windows and Unix category I and II vulnerabilities
by May 5, 2008. In addition, the Director, Defense Information Systems Agency
Computing Services has already taken action and provided the audit team with the
updated configuration management plan in November 2007.

Audit Response. We commend the Director, Defense Information Systems Agency for
taking prompt corrective action. The Director, Defense Information Systems Agency
comments were responsive and conform to requirements; no additional comments are
needed.




                                           18
            E. Segregation of Duties
            The P&E Policy Office documented procedures for personnel to follow in
            performing their job functions and established access controls to separate
            the development, testing, and production environments. However,
            management did not properly segregate incompatible duties. Segregation
            of incompatible duties was inadequate because the P&E Policy Office did
            not follow DoD guidance. As a result, there is an increased risk of
            unauthorized or erroneous posting of, changes to, or deletion of
            transactions within CAMS-ME.


Segregation of Duties Controls
     Segregation of duties refers to the separation of work responsibilities to prevent
     one employee from controlling all critical stages of a process. Segregation of
     duties is a critical control that assures the separation of the functions of
     authorizing, processing, recording, and reviewing transactions. Dividing duties
     among two or more individuals or groups diminishes the likelihood that errors
     and wrongful acts will go undetected because the activities of one individual or
     group will serve as a check on the activities of the other. Segregation of duties
     reviewed includes duties performed by the project team, development personnel,
     and the help desk at the P&E Policy Office, SSC San Diego, and DFAS
     Columbus.


Operating Procedures
     The P&E Policy Office effectively controlled personnel activity through the use
     of operating procedures. In conjunction with SSC San Diego and DFAS
     Columbus, the P&E Policy Office documented operating procedures for the
     development, help desk, and security management personnel. Management also
     reviewed and approved configuration and administration changes that effected the
     operation of CAMS-ME. These procedures help prevent and detect unauthorized
     personnel actions such as fraudulent transactions and improper implementation of
     program changes.


Segregate Incompatible Duties
     The P&E Policy Office implemented access controls to segregate duties, such as
     creating separate development, testing, and production environments. In addition,
     management developed, assigned, and monitored CAMS-ME profiles to limit
     user activity and provided project team, development, and help desk personnel
     with information necessary to understand their job functions. However, they did
     not develop and implement controls to segregate all functions. Specifically,
     management created help desk and generic data input user accounts that did not
     allow for least privilege and separation of duties principles.



                                         19
    Help Desk User Accounts. Management assigned more profiles to help desk
    user accounts than were necessary to perform their job functions. The profiles
    provided them the ability to create, edit, and delete transactions within
    CAMS-ME. According to the DFAS Columbus, "CAMS-ME Operations Support
    Team Management Plan," the primary responsibilities of the help desk at DFAS
    Columbus were to perform user administration and record transaction problems.
    The transaction problems were to be resolved by personnel at the P&E Policy
    Office, not the help desk. DoD Instruction 8500.2, “Information Assurance
    Implementation,” February 6, 2003, requires the Information Assurance Manager
    to develop and implement a role-based access scheme that implements the
    principles of least privilege and separation of functions. Management assigned
    the help desk user accounts these profiles because they did not follow DoD policy
    on segregation of duties and least privilege principles. As a result, there is an
    increased risk of unauthorized entries, corrections, or deletions of transactions
    within CAMS-ME. To mitigate this risk, management should review the help
    desk user accounts to ensure that they have enough, but not excessive,
    CAMS-ME profiles to perform their job functions.

    Generic Data Entry User Accounts. The P&E Policy Office developed generic
    user accounts that did not provide for segregation of duties. Management
    developed three data conversion accounts to enter military equipment data into
    CAMS-ME at inception, and subsequently created four more of these accounts.
    These seven accounts allowed a user to input or change data for any military
    equipment program without a review for accuracy. The generic accounts were
    used at the end of FY 2006, but management did not retain documentation of how
    and why the accounts were used. DoD Financial Management Regulation,
    volume 1, chapter 3, Key Accounting Requirement 7 states that organizations
    must maintain a separation of duties for reviewing transactions. In addition, DoD
    Instruction 8500.2 states access to DoD information systems processing sensitive
    information requires presentation of an individual authenticator. The accounts
    remained in the system because the P&E Policy Office did not follow DoD
    guidance. As a result, there is an increased risk that one or more of these
    accounts could be intentionally or unintentionally unlocked and unauthorized or
    erroneous data could be entered into CAMS-ME. If there is no review of this
    data, it will go undetected and will subsequently be reported on the DoD balance
    sheet. To mitigate this risk, management should delete these accounts.


Recommendations, Management Comments, and Audit
  Response
    E. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis:

           1. Review help desk user accounts to ensure that they have the
    appropriate profiles to perform their job functions to comply with DoD
    Instruction 8500.2, “Information Assurance Implementation,” February 6,
    2003.

           2. Delete the generic data conversion user accounts to limit the ability
    of a user to intentionally or unintentionally enter erroneous data without an
    audit trail or supervisory review in accordance with DoD Financial
                                       20
Management Regulation, volume 1, chapter 3, Key Accounting
Requirement 7 and DoD Instruction 8500.2, “Information Assurance
Implementation,” February 6, 2003.

       Management Comments. The Director, Acquisition Resources and
Analysis concurred. The Director, Acquisition Resources and Analysis has
completed a review of the help desk user accounts and identified mitigating
controls to ensure that assets are protected. In addition, the Director, Acquisition
Resources and Analysis deleted the generic data entry accounts in
November 2007.

       Audit Response. We commend the Director, Acquisition Resources and
Analysis for taking prompt action in resolving these recommendations. The
Director, Acquisition Resources and Analysis comments were responsive and
conform to requirements; no additional comments are needed.




                                     21
            F. Service Continuity
            DISA Ogden established adequate environmental controls. However, the
            P&E Policy Office and DISA Ogden did not adequately design service
            continuity controls to operate effectively. Specifically, management did
            not prioritize computerized operations and develop and document a
            comprehensive contingency plan. The P&E Policy Office and DISA
            Ogden did not design adequate service continuity controls because they
            did not establish or follow service continuity policies and procedures. As
            a result, there is an increased risk of delay in the restoration of critical
            operations and loss of data in an emergency.


Service Continuity Controls
     Service continuity is synonymous with a disaster recovery plan. A loss of the
     capability to process, retrieve, and protect electronically maintained information
     can significantly affect an agency’s ability to accomplish its mission. Because of
     this risk, organizations should implement service continuity controls to ensure
     that when unexpected events occur, critical operations continue without
     interruption or are promptly resumed, and critical and sensitive data are protected.
     Controls to ensure service continuity should address the entire range of potential
     disruptions, which may include relatively minor interruption, such as temporary
     power failures, as well as major disasters. The P&E Policy Office developed their
     “CAMS-ME 1.1 COOP [Continuity of Operations Plan] Executive Summary of
     Planning Activities,” June 19, 2006, and DISA Ogden developed their “Business
     Continuity Plan for Systems Management Center Ogden,” May 2005, as guides in
     the event of a contingency.


Prevent and Minimize Damage and Interruption
     DISA Ogden established adequate environmental controls over the CAMS-ME
     hardware to prevent and minimize damage and interruption. Management
     implemented controls including inspections of the fire extinguishers; fire, smoke,
     and water detection systems; and uninterruptible power supply. The DISA Ogden
     facility was constructed in compliance with earthquake specifications and the
     server lab was temperature controlled. These controls help prevent minor
     problems from becoming costly disasters.




                                         22
Prioritize Computer Operations and Supporting Resources
    The P&E Policy Office appropriately established the CAMS-ME resource and
    system criticality levels. However, they did not establish service continuity
    controls based on the assessment of the criticality and sensitivity of computerized
    operations. Specifically, management did not:

           •   identify resources supporting critical data and operations,

           •   establish emergency data processing procedures, and

           •   establish system recovery and reconstitution procedures.

    The P&E Policy Office did not establish service continuity controls based on the
    assessment of the criticality and sensitivity of computerized operations because
    management did not fully develop or follow service continuity policies and
    procedures.

    Resources Supporting Critical Data and Operations. The P&E Policy Office
    did not adequately identify resources supporting critical data and operations. The
    “CAMS-ME 1.1 COOP Executive Summary of Planning Activities” did not
    identify supporting resources on its list of “decisions and details to be
    completed.” In addition, management did not ensure that the DISA Ogden
    prioritized restoration list included CAMS-ME. DoD Directive 3020.26,
    “Defense Continuity Program (DCP),” January 1, 2007, states that contingency
    plans should identify and prioritize organizational mission essential functions.
    According to the DISA “Business Continuity Plan for Systems Management
    Center Ogden,” May 2005, the customer is responsible for ensuring that their
    system is included on the prioritized restoration list.

    Emergency Data Processing Procedures. The P&E Policy Office did not
    document emergency processing procedures. Management planned to provide
    Components with spreadsheets to collect data. However, they did not document
    procedures for creating or completing the spreadsheets. Office of Management
    and Budget Circular No. A-127, Revised, “Financial Management Systems,”
    July 23, 1993, states that agency financial management systems and processing
    instructions must be clearly documented in hard copy or electronically.

    System Recovery and Reconstitution Procedures. The P&E Policy Office did
    not adequately develop and document procedures for system recovery and
    reconstitution once a contingency is complete. Management did not adequately
    document procedures for starting up CAMS-ME at an alternate location. Also,
    management did not document or develop reconstitution procedures which
    include restarting the system, reloading manually processed data, and cleaning the
    alternate site once a contingency is complete. National Institute of Standards and
    Technology Special Publication 800-34, “Contingency Planning Guide for
    Information Technology Systems,” June 2002, recommends developing a
    recovery strategy and reconstitution procedures.

    The P&E Policy Office did not establish service continuity controls based on the
    assessment of the criticality and sensitivity of computerized operations. As a
    result, there is an increased risk of delays in the restoration of data processing

                                        23
    leading to inaccurate or incomplete financial information. Management has taken
    action by developing the “Capital Asset Management for Military Equipment,
    Contingency Planning Tabletop Test Plan,” September 27, 2007, and the draft
    “Capital Asset Management System for Military Equipment (CAMS-ME),
    Continuity of Operations Plan (COOP),” September 26, 2007. However, the Test
    Plan and draft CAMS-ME COOP did not address all findings. To further mitigate
    this risk, management should finalize the draft CAMS-ME COOP, ensure that
    CAMS-ME is included on the DISA Ogden prioritized restoration list, and
    document emergency data processing and develop reconstitution procedures.


Develop and Document a Comprehensive Contingency Plan
    The P&E Policy Office and DISA Ogden did not document a comprehensive
    contingency plan for CAMS-ME. Specifically, the P&E Policy Office did not
    develop a contingency plan for the CAMS-ME application and business
    processes. DISA Ogden had a contingency plan for the facility and other
    applications; however, it was not complete and up-to-date. DITSCAP and DoD
    Directive 3020.26 provide guidance for documenting and updating a
    comprehensive contingency plan. The P&E Policy Office and DISA Ogden did
    not have comprehensive contingency plans because they did not follow service
    continuity guidance.

    CAMS-ME Contingency Plan. The CAMS-ME 1.1 COOP Executive Summary
    of Planning Activities was not a comprehensive contingency plan. The P&E
    Policy Office did not include the following, as recommended by National Institute
    of Standards and Technology Special Publication 800-34:

           •   a disaster recovery plan,

           •   procedures for backup tapes,

           •   results of scheduled exercises and drills, and

           •   criteria on when the continuity of operations plan should be
               implemented and who can make that decision.

    DISA Ogden Contingency Plan. DISA Ogden developed and tested the
    Business Continuity Plan. However, the DISA Ogden contingency plan did not
    incorporate emergency procedures to follow in the event of a natural disaster. In
    addition, the plan was not up-to-date and did not identify the current off-site
    storage provider.

    The P&E Policy Office and DISA Ogden did not document a comprehensive
    contingency plan for CAMS-ME. As a result, there is an increased risk that
    recovery of CAMS-ME processing would be delayed in the event of a
    contingency. P&E Policy Office management has taken action by developing
    their CAMS-ME COOP and CAMS-ME Contingency Planning Tabletop Test
    Plan. To further mitigate this risk, DISA Ogden should update their Business
    Continuity Plan to include the current off-site storage provider and emergency
    procedures.


                                           24
Recommendations, Management Comments, and Audit
  Response
    F.1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics/Acquisition Resources and Analysis:

           a. Provide the Defense Information Systems Agency Ogden the
    necessary information to ensure that Capital Asset Management System-
    Military Equipment is included in the prioritized restoration list according to
    DoD Directive 3020.26, “Defense Continuity Program (DCP),” January 1,
    2007.

            Management Comments. The Director, Acquisition Resources and
    Analysis concurred. The Director, Acquisition Resources and Analysis stated that
    the Capital Asset Management System-Military Equipment was added to the
    prioritized restoration list in September 2007.

           Audit Response. The Director, Acquisition Resources and Analysis
    comments were responsive and conform to requirements; no additional comments
    are needed.

           b. Document manual processing procedures.

           Management Comments. The Director, Acquisition Resources and
    Analysis concurred. The Director Acquisition Resources and Analysis tested the
    contingency plan on September 27, 2007.

           Audit Response. The Director, Acquisition Resources and Analysis
    comments were responsive and conform to requirements; no additional comments
    are needed.

          c. Develop and document procedures to restore the original facility
    and IT system to normal operating conditions once a contingency is over.

             Management Comments. The Director, Acquisition Resources and
    Analysis concurred. The Director, Acquisition Resources and Analysis refer the
    ability to restore the original facility and IT system to normal operation conditions
    to the Defense Information Systems Agency business continuity plan.

           Audit Response. The Director, Acquisition Resources and Analysis
    comments were partially responsive. The Director, Acquisition Resources and
    Analysis identified the Defense Information Systems Agency Business Continuity
    Plan for procedures on restoring the system to normal operating conditions once a
    contingency is over. We request that the Under Secretary of Defense for
    Acquisition, Technology, and Logistics/Acquisition Resources and Analysis
    document or at least reference the Defense Information Systems Agency
    procedures within the CAMS-ME Continuity of Operations Plan and provide a
    completion date in his comments on the final report.

          d. Finalize the draft “Capital Asset Management System for Military
    Equipment (CAMS-ME), Continuity of Operations Plan (COOP),”
    September 26, 2007.

                                         25
       Management Comments. The Director, Acquisition Resources and
Analysis concurred. The Director, Acquisition Resources and Analysis finalized
the contingency plan following the table top exercise on September 27, 2007.

       Audit Response. We commend the Director, Acquisition Resources and
Analysis for taking prompt corrective action. The Director, Acquisition
Resources and Analysis comments were responsive and conform to requirements;
no additional comments are needed.

F.2. We recommend that the Director, Defense Information Systems Agency
update their contingency plan to:

       a. Include emergency procedures to follow during a natural disaster.

       b. Identify the current off-site storage provider.

       Management Comments. The Defense Information Systems Agency
concurred. The Director, Defense Information Systems Agency Computing
Services plans to include the local emergency procedures for natural disasters
including earthquakes and the current off-site storage provider in the contingency
plan by May 5, 2008, and April 30, 2008, respectively.

       Audit Response. The Director, Defense Information Systems Agency
comments were responsive and conform to requirements; no additional comments
are needed.




                                    26
Appendix A. Scope and Methodology
 We conducted this performance audit from January 2007 through February 2008
 in accordance with generally accepted government auditing standards. Those
 standards require that we plan and perform the audit to obtain sufficient,
 appropriate evidence to provide a reasonable basis for our findings and
 conclusions based on our audit objectives. We believe that the evidence obtained
 provides a reasonable basis for our findings and conclusions based on our audit
 objectives.

        •   We interviewed personnel at the P&E Policy Office Arlington,
            Virginia; SSC San Diego California; DISA Ogden, Utah; and DFAS
            Columbus, Ohio.

        •    We inspected documentation and observed activities supporting the
            effectiveness of the general controls at the P&E Policy Office
            Arlington, Virginia; SSC San Diego, California; DISA Ogden, Utah;
            and DFAS Columbus, Ohio.

        •   We reviewed and tested specific control activities in place at the P&E
            Policy Office Arlington, Virginia; SSC San Diego, California; DISA
            Ogden, Utah; and DFAS Columbus, Ohio.

        •   We obtained and inspected system settings, access controls, and the
            results of security readiness review assessments performed at the
            SSC San Diego, California; DISA Ogden, Utah; and DFAS Columbus,
            Ohio.

 We used the Government Accountability Office “Federal Information System
 Controls Audit Manual” to develop the audit guide and procedures performed
 during this audit. Based on the Federal Information System Controls Audit
 Manual, the audit was divided into six areas:

        •   The entity-wide security program planning and management area is
            the foundation on which all other general controls rely.

        •   Physical and logical access controls reasonably protect the system and
            data from unauthorized modification, loss, and disclosure.

        •   Application change controls are defined as the establishment of
            controls over the modification of application software programs to
            ensure that only authorized system programs and modifications were
            implemented.

        •   System software includes programs that are designed to operate and
            control the processing activities of computer equipment on which an
            application resides.




                                     27
       •   Segregation of duties refers to the separation of work responsibilities
           whereby one employee supporting the application does not control all
           critical stages of a process.

       •   Service continuity includes the protection of an activity’s resources,
           minimization of opportunities for service interruption, and planning
           for service recovery.

The control objectives included within the scope of the audit were derived from
applicable laws and regulations.

The scope of this audit focused on controls at the P&E Policy Office Arlington,
Virginia; SSC San Diego, California; DISA Ogden, Utah; and DFAS Columbus,
Ohio, sites. The controls assessed in this audit included controls associated with
the security planning and management, access, application change, system
software, segregation of duties, and service continuity controls of CAMS-ME.
Because of the planned CAMS-ME Increment 2 Release, the Statement on
Auditing Standards No. 70 Audit of the Defense Information Systems Agency,
and availability of audit resources, we did not perform tests of the following:

       •   Application controls,

       •   System penetration, and

       •   Segregation of duties controls over functional users.

Use of Computer-Processed Data. We did not rely on computer-processed data
to perform this audit. Rather, we assessed the general controls over
computer-processed data.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Protecting Federal Government’s Information-Sharing
Mechanisms, DoD Approach to Business Transformation, and DoD Financial
Management high-risk areas.




                                     28
Prior Coverage
     During the last 5 years, the Department of Defense Office of Inspector General
     has issued two reports discussing the Defense Information Systems Agency
     Controls over the Center for Computing Services. These reports are indirectly
     related to CAMS-ME because they discuss controls that the Defense Information
     Systems Agency has implemented. Unrestricted Department of Defense Office of
     the Inspector General reports can be accessed over the Internet at
     http://www.dodig.mil/.

DoD IG
     DoD IG Report No. D-2007-082, “Defense Information Systems Agency Controls
     over the Center for Computing Services,” April 9, 2007

     DoD IG Report D-2006-086, “Report on the General and Applications Controls at
     the Defense Information Systems Agency, Center for Computing Services,”
     May 18, 2006




                                       29
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration)/Chief
   Information Officer
Director, Program Analysis and Evaluation (PA&E)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
National Security Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services

                                          30
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      31
Under Secretary of Defense for Acquisition,
Technology, and Logistics/Acquisition Resources
and Analysis Comments
                                                  Final Report
                                                   Reference




                                                  Renumbered
                                                  as
                                                  Recommend
                                                  ation A.




                                                  Deleted




                      33
34
     Final Report
      Reference




     Renumbered
     as
     Recommend
     ation C.




35
36
37
Director, Defense Information Systems Agency




                      38
39
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Patricia A. Marsh
Edward A. Blair
Gregory M. Mennetti
Dwayne A. Coulson
Michael B. Dell, Jr.
Devon R. Houston
Kendall A. Miller
Dea M. Algeo
Troy A. Robertson
Celita M. Pomales
Ai T. Nguyen
Erin S. Hart
